                Improvements Are Needed in the Screening
                   and Monitoring of E-File Providers to
                       Protect Against Filing Fraud

                                  November 2003

                       Reference Number: 2004-40-013




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     November 3, 2003


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION
                      COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION


       FROM:                         Gordon C. Milbourn III
                                     Assistant Inspector General for Audit (Small Business and
                                     Corporate Programs)

       SUBJECT:                      Final Audit Report - Improvements Are Needed in the Screening
                                     and Monitoring of E-File Providers to Protect Against Filing
                                     Fraud (Audit # 200340040)


       This report presents the results of our review to assess the Internal Revenue Service’s
       (IRS) regulation of Electronic Return Originators (ERO). Our assessment included the
       results from previously issued Treasury Inspector General for Tax Administration
       (TIGTA) audit reports1 along with information provided in an interview with an ERO
       convicted of electronically filing (e-filing) fraudulent tax returns. Our review was
       performed to follow up on the current status of recommendations addressing the
       concerns identified in the previous reports.
       The IRS’ e-file Program offers taxpayers an alternative to filing a traditional paper tax
       return. The e-file Program enables taxpayers to send their tax returns to the IRS in an
       electronic format via an authorized IRS e-file Provider, known as an ERO. The ERO is
       the first point of contact for most taxpayers filing a tax return through the e-file Program.
       As of July 2003, 154,4682 EROs were authorized to participate in the e-file Program,
       and they had e-filed over 36 million of the over 52 million e-filed tax returns.




       1
         E-File Providers Are Not Adequately Screened (Reference Number 2002-40-111, dated June 2002); and
       Improvements to the Electronic Return Originator Monitoring Program Are Needed (Reference Number
       2003-30-039, dated January 2003).
       2
         The IRS provided this figure, and we did not validate it. However, it is overstated, as e-file Providers can be
       authorized to transmit e-filed tax returns to more than one Electronic Individual Return Submission Processing Site.
                                                           2

The primary means by which the IRS regulates EROs are the ERO application
screening process and the ERO monitoring program. The ERO application screening
process is used by the IRS to ensure that the individuals applying for entry into the
e-file Program have met required screening and verification checks before they are
authorized to participate in the Program. The ERO monitoring program is designed to
ensure EROs are in compliance with e-file regulations.
The IRS continues to authorize individuals to participate in the e-file Program without
ensuring they have met all required screening checks. These checks include:
(1) meeting age and/or citizenship requirements, (2) ensuring the validity of an
individual’s current standing when a professional certification is provided in lieu of a
fingerprint card, and (3) passing a criminal background check. For the limited number
of individuals that were subjected to a criminal background check,3 procedures did not
ensure that the results from the criminal background check were properly analyzed prior
to making a decision regarding acceptance in the Program.
In 2003, the IRS took steps to strengthen its monitoring program by requesting
computer programming that will continuously monitor the tax accounts of EROs for
suspect transactions. However, improvements are needed in the process followed to
monitor individuals once they have been authorized to participate in the e-file Program.
Specifically, the monitoring program does not include requirements to perform periodic
criminal background checks, or to analyze and use the results of the percentage of
rejected returns4 by an ERO as an indicator of noncompliance or possible educational
outreach opportunities. Furthermore, goals and measurements to assess the
effectiveness of the ERO monitoring program have not been established.
Both the TIGTA and an IRS Task Force have made numerous recommendations to
address the above detailed weaknesses in the ERO screening process and monitoring
program. However, the IRS has taken corrective actions in response to only some of
these recommendations (see Appendix V for details on previous recommendations).
As a result of applicant screening and monitoring control weaknesses, individuals have
been accepted into the Program and have used it to commit filing fraud. For example,
1 ERO filed approximately 9,000 fraudulent returns over a 3-year period and received
approximately $7 million in fraudulent refunds in 1 year alone. This ERO had a criminal
history and an e-file reject rate of over 40 percent. The high reject rate occurred
because the ERO used the IRS to verify whether illegally obtained Social Security
Numbers the ERO used on the fraudulently prepared e-filed tax returns were valid per
IRS records. This ERO has pled guilty to filing false, fictitious, and fraudulent claims
against the United States (U.S.) (tax returns) for 5 years, among other crimes.


3
  A fingerprint card is not required if the applicant has a professional certification. For applicants that do submit
fingerprint cards, only one in four is sent for a Federal Bureau of Investigation criminal background check.
4
  When an e-filed return is transmitted to the IRS, it is run through a series of validity and error checks. These
checks look for such things as names and Social Security Numbers that match IRS records, math errors, and other
common errors. If errors are found, the return is rejected back to the ERO to fix the error and resubmit the return.
The percentage of returns transmitted versus returns rejected is known as the “reject rate.”
                                           3

To protect the integrity of the e-file Program and protect taxpayers and the Federal
Government against losses from filing fraud, we recommended that during the
application screening process the Commissioner, Wage and Investment (W&I) Division,
ensure that: (1) the age and citizenship requirements are met, (2) criminal background
information is obtained electronically, (3) individuals who provide professional
certifications are in current standing, and (4) the oversight responsibility for the
screening process is transferred away from the current function to eliminate any
potential conflict of interest. We also recommended that the Commissioner,
W&I Division, subject authorized EROs to periodic updates of criminal investigations,
and require e-file reject rates to be analyzed and used as an indicator when selecting
EROs for visits/educational efforts. Finally, we recommended that the Commissioner,
Small Business/Self-Employed Division, establish a system to measure the
effectiveness of the ERO monitoring program.
Management’s Response: The IRS agreed completely with five of our seven
recommendations and partially agreed with one other. Management has already
initiated a number of corrective actions. One change the IRS made recently was to shift
the oversight of the screening/monitoring process for EROs to the Electronic Tax
Administration organization that is responsible for oversight of the e-file Program.
While the IRS agreed that our outcome measure represents a reasonable estimate of
potential cost savings, management did not agree that performing periodic criminal
background checks for all individuals authorized to participate in the e-file Program is
feasible. As a result, they did not agree with the outcome measure. IRS management
believes that enhancements to the monitoring program will outweigh the cost associated
with performing the additional checks.
Management’s complete response to the draft report is included as Appendix VI.
Office of Audit Comment: We support the IRS’ primary e-file goal of ensuring that
individuals who apply to participate in the e-file Program have met required screening
and verification checks. The recommendations management agreed to implement will
assist the IRS in meeting this goal. However, management did not agree to completely
implement Recommendation 1 and disagreed with Recommendation 5. Without fully
implementing these two recommendations, the IRS’ ability to protect the integrity of the
e-file Program, and protect taxpayers and the Government against losses from filing
fraud, may be hindered.
Specifically, IRS management indicated that concerning Recommendation 1, they do
not believe researching existing information currently maintained to ensure applicants
meet citizenship requirements is beneficial. We believe that this would be beneficial.
Considering the Government’s focus on citizenship issues, the IRS should ensure all
EROs meet the requirements of citizenship. In addition, at the completion of our prior
                                                     4

review and based on our analysis of IRS data,5 we referred to the TIGTA’s Office of
Investigations 350 authorized EROs identified as having questionable citizenship. To
date, the Office of Investigations has confirmed that 93 of these individuals are not
U.S. citizens or legal resident aliens and, therefore, should not have been authorized to
participate in the e-file Program.
Management also disagreed with Recommendation 5 to perform periodic criminal
background checks. Management indicated that this would apply to only e-file
Providers in good standing with initial checks being done to determine if an individual
can be trusted to process electronic tax returns. We agree that the initial checks, if
performed, assist in identifying individuals who should not be authorized to participate.
In addition, we agree that periodic checks alone will not correct the problem of e-file
filing fraud. However, we continue to believe that these periodic checks may
complement other monitoring process improvements the IRS is making. Periodic
checks and other planned monitoring improvements may assist the IRS in ensuring that
authorized e-file Providers continue to comply with e-file rules and are not involved in
unethical practices regarding tax return preparation and/or disreputable conduct, which
are both conditions for non-acceptance in the Program. While we still believe our
recommendations are worthwhile, we do not intend to elevate our disagreement
concerning them to the Department of Treasury for resolution.
Finally, management noted that although the outcome measure presented in our audit
report was a reasonable estimate, they could not agree to the outcome because they
disagreed with Recommendation 5. We continue to support our revenue protection
outcome measurement and believe that if the recommendations made in prior reports
had been implemented, the ERO we cited in our audit report as having filed
approximately 9,000 fraudulent tax returns over a 3-year period, and who received
approximately $7 million in fraudulent tax refunds in 1 year, could have been identified
earlier, thus preventing a loss of Government funds.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.




5
 E-File Providers Are Not Adequately Screened (Reference Number 2002-40-111, dated June 2002); and
Improvements to the Electronic Return Originator Monitoring Program Are Needed (Reference Number
2003-30-039, dated January 2003).
                     Improvements Are Needed in the Screening and Monitoring
                         of E-File Providers to Protect Against Filing Fraud




                                                  Table of Contents


Background ............................................................................................... Page 1
Improvements Are Needed in the Applicant Screening Process. .............. Page 2
         Recommendation 1: ..................................................................... Page 9
         Recommendation 2: ...................................................................... Page 10
         Recommendations 3 and 4: .......................................................... Page 11

Improvements Are Needed in the Electronic Return
Originator Monitoring Program. ................................................................. Page 11
         Recommendation 5: ...................................................................... Page 16
         Recommendations 6 and 7: .......................................................... Page 17

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 19
Appendix II – Major Contributors to This Report........................................ Page 20
Appendix III – Report Distribution List ....................................................... Page 21
Appendix IV – Outcome Measures ............................................................ Page 22
Appendix V – Recommendations Related to the Screening
and Monitoring of Electronic Return Originators ........................................ Page 23
Appendix VI – Management’s Response to the Draft Report .................... Page 26
             Improvements Are Needed in the Screening and Monitoring
                 of E-File Providers to Protect Against Filing Fraud

                               The Internal Revenue Service’s (IRS) electronic filing
Background
                               (e-file) Program offers taxpayers an alternative to filing a
                               traditional paper tax return. The e-file Program enables tax
                               returns to be sent to the IRS in an electronic format via an
                               authorized IRS e-file Provider known as an Electronic
                               Return Originator (ERO).
                               An ERO is the first point of contact for most taxpayers
                               filing a tax return through the IRS’ e-file Program. An ERO
                               originates the electronic submission of a return to the IRS.
                               As of July 2003, 154,4681 EROs were authorized by the IRS
                               to participate in the e-file Program, and they had
                               electronically filed (e-filed) over 36 million of the over
                               52 million e-filed tax returns.
                               The IRS is responsible for reviewing applications from
                               individuals applying to participate in the e-file Program, as
                               well as ensuring that the individuals who have been
                               authorized to participate maintain a high degree of integrity
                               and adhere to the highest professional and ethical standards.
                               To become an ERO, an applicant is required to prepare and
                               submit to the IRS an Application to Participate in the IRS
                               e-file Program (Form 8633), along with a fingerprint card.
                               The IRS allows individuals who have a professional
                               certification to send a copy of the certification in lieu of a
                               fingerprint card.2 The requirements and screening checks
                               outlined in the IRS’ Handbook For Authorized IRS e-file
                               Providers of Individual Income Tax Returns
                               (Publication 1345) are meant to ensure the integrity of the
                               individuals authorized to participate in the e-file Program
                               and include:
                               •   Applicant must be a United States (U.S.) citizen or legal
                                   resident alien.
                               •   Applicant must be 21 years of age as of the date of the
                                   application.

                               1
                                 The IRS provided this figure, and we did not validate it. However, it is
                               overstated, as e-file Providers can be authorized to transmit
                               electronically filed tax returns to more than one Electronic Individual
                               Return Submission Processing Site.
                               2
                                 Per Form 8633, professional certifications include attorneys, banking
                               officials, and Certified Public Accountants.
                                                                                                 Page 1
               Improvements Are Needed in the Screening and Monitoring
                   of E-File Providers to Protect Against Filing Fraud

                                  •   Applicant must pass a criminal background check.
                                  •   A determination must be made as to whether individual
                                      and business tax returns were filed and taxes owed were
                                      paid.
                                  The primary means by which the IRS regulates EROs are
                                  the ERO application screening process and the ERO
                                  monitoring program. The ERO application screening
                                  process is used to ensure that the individuals applying for
                                  entry into the e-file Program have met required screening
                                  and verification checks before they are authorized to
                                  participate in the Program. The ERO monitoring program
                                  is designed to ensure EROs are in compliance with e-file
                                  regulations.
                                  This audit was performed in the Wage and Investment
                                  (W&I) Division Headquarters in Atlanta, Georgia. Our
                                  assessment included reviewing the results from previously
                                  issued Treasury Inspector General for Tax Administration
                                  (TIGTA) audit reports,3 along with information provided in
                                  an interview with an ERO convicted of filing fraudulent tax
                                  returns. Our review was performed to follow up on the
                                  current status of recommendations addressing the concerns
                                  published in our two previous audit reports.
                                  Audit work was conducted between February and May 2003
                                  in accordance with Government Auditing Standards.
                                  Detailed information on our audit objective, scope, and
                                  methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  The W&I Division has initiated actions to improve its
Improvements Are Needed in
                                  applicant screening process. Specifically, management
the Applicant Screening Process
                                  consolidated the screening site of all applicants to one
                                  location to ensure consistent and stringent procedures are
                                  used to screen the applicants. In addition, the IRS
                                  encourages individuals who attend its National Tax Forums



                                  3
                                   E-File Providers Are Not Adequately Screened (Reference Number
                                  2002-40-111, dated June 2002); and Improvements to the Electronic
                                  Return Originator Monitoring Program Are Needed (Reference Number
                                  2003-30-039, dated January 2003).
                                                                                            Page 2
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                  to apply onsite to be EROs, including providing
                  fingerprinting.
                  In an attempt to meet the IRS Restructuring and Reform
                  Act of 1998 (RRA 98)4 goal of having 80 percent of all tax
                  returns filed electronically by 2007, the IRS aggressively
                  marketed becoming an e-file Provider to private firms and
                  individuals. However, the IRS function responsible for
                  oversight of the screening and acceptance process for new
                  EROs is also responsible for marketing the e-file Program to
                  potential EROs. This could result in a separation-of-duties
                  conflict, as the function is both responsible for creating
                  standards and controls to ensure integrity of the system, and
                  involved in trying to encourage practitioners to become
                  EROs.
                  There continue to be several areas where the ERO applicant
                  screening process can be improved.
                  Prior audit report identified that applicant screening
                  checks were not always being completed
                  A previous TIGTA report5 assessing the IRS’ process of
                  screening ERO applicants found that the IRS did not have
                  effective screening procedures to adequately determine who
                  should be allowed to participate in the e-file Program.
                  Specifically, we reported that:
                  •   The IRS does not independently validate age and
                      citizenship requirements.
                  •   Screening checks publicized to the taxpaying public as
                      extensive were found to be limited primarily to whether
                      an individual filed tax returns and paid taxes due.
                  •   Screening checks were not performed for individuals
                      who participate as EROs as a service not for profit (such
                      as at Volunteer Income Tax Assistance (VITA) and
                      American Association of Retired Persons (AARP) sites).


                  4
                    Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                  sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                  23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                  5
                    E-File Providers Are Not Adequately Screened (Reference Number
                  2002-40-111, dated June 2002).
                                                                                  Page 3
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                  •   For the limited number of individuals selected for a
                      criminal background check, 60 percent received
                      authorization to participate in the e-file Program before
                      the results from the Federal Bureau of Investigation
                      (FBI) were received and analyzed.6
                  Weaknesses in the applicant screening process resulted from
                  internal IRS guidelines that state the applicant screening site
                  is not responsible for verifying the age, citizenship, or
                  validity of professional certification programs. Also, the
                  Form 8633 does not require IRS volunteers to provide
                  identifying information on the e-file application. IRS
                  management indicated that it relies on voluntary compliance
                  and the fact that the IRS asks for information such as a
                  fingerprint card or professional certification as deterrents to
                  individuals with criminal backgrounds who would attempt
                  to apply to the e-file Program.
                  In response to the previous recommendations, IRS
                  management acknowledged the risks involved and chose to
                  partially accept one of the four recommendations. The IRS’
                  response to those recommendations not accepted was that
                  “simply increasing the number of applicants we subject to
                  an existing compliance check does not necessarily equal a
                  more effective screening method.”
                  Follow-up audit work identified that EROs continue to
                  be inadequately screened
                  Our follow-up audit work has identified that the IRS
                  continues to authorize individuals to participate in the e-file
                  Program without adequately screening these individuals.
                  Specifically, individuals continue to be accepted into the
                  e-file Program without assurance that they:
                  •   Met age and citizenship requirements.
                  •   Are in current standing with the organization to which a
                      professional certification relates.
                  •   Successfully passed a criminal background check.

                  6
                    A fingerprint card is not required if the applicant has a professional
                  certification. For applicants that do submit fingerprint cards, only one in
                  four is sent for an FBI criminal background check.
                                                                                    Page 4
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                  •   Are subjected to screening checks if they participate as
                      volunteer EROs.
                  Individuals continue to be accepted into the e-file Program
                  without assurance that age and citizenship requirements
                  have been met.
                  Despite having the data to enable independent verification
                  of age and citizenship requirements, the IRS still relies on
                  applicants’ voluntary compliance when providing this
                  information. The IRS receives data from the Social Security
                  Administration that contains an individual’s date of birth
                  and a citizenship code. These data are readily available
                  through the IRS’ computer system.
                  Individuals continue to be accepted into the e-file Program
                  without assurance that they are in current standing with
                  the organization to which a professional certification
                  relates.
                  The IRS still permits individuals to provide a professional
                  certification in lieu of a fingerprint card. This means these
                  individuals will not be subjected to a criminal background
                  check. However, during our previous review, we found that
                  individuals submitted certifications that were over 20 years
                  old. In addition, one individual simply stated he or she had
                  a certification but did not submit the documentation. In
                  both examples, the individuals were accepted into the e-file
                  Program.
                  Individuals continue to be accepted into the e-file Program
                  without assurance that they successfully passed a criminal
                  background check.
                  •   Criminal background checks are not completed on some
                      individuals who apply to become an ERO. The IRS still
                      subjects only one out of every four applicants, excluding
                      those who provide a professional certification, to a
                      criminal background check. The process used by the
                      IRS to perform these criminal background checks is a
                      time-consuming, manual, paper-based fingerprint
                      process. However, significant technological advances
                      have created an electronic means to perform criminal
                      background checks, enabling fingerprints to be
                      electronically scanned and transmitted to the FBI over
                                                                         Page 5
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                      a Wide Area Network. This would reduce the IRS’
                      current time period to obtain criminal background
                      checks from up to 14 days to a 24-hour turnaround.
                      Currently, other Federal Government agencies such as
                      the Office of Personnel Management and the Census
                      Bureau use this method. Depending upon the volume
                      and other technical issues, the cost of the system would
                      be approximately $10,000 to $20,000.
                  •   Criminal background investigations, when performed,
                      were not properly conducted. When criminal
                      background checks were performed and results (criminal
                      activity) were returned, these results were not properly
                      analyzed prior to making the decision to accept the
                      applicant into the e-file Program.
                      Specifically, we reviewed the data returned from
                      criminal background checks on 90 applicants during
                      December 2002. We found that only 10 of the
                      90 reports were sent to the Criminal Investigation (CI)
                      function for review despite IRS procedures specifying
                      that when the criminal background information is
                      returned from the FBI showing criminal activity, the
                      information must be forwarded to the Fraud Detection
                      Center7 in the CI function. The CI function
                      recommended a “fail” on 9 of the 10 reports sent for
                      review.
                  Our review of the 80 criminal background reports not sent
                  to the CI function for review identified that 5 of the
                  individuals had criminal histories that would warrant
                  review. Specifically:
                  •   One applicant had been convicted of three counts of
                      theft and served time for the crime. On documentation
                      sent in with his or her application, the prospective
                      applicant stated, “The charge was brought about because
                      I had taken funds from an account over which I had
                      power of attorney and used these funds for personal
                      use.”


                  7
                   The Fraud Detection Centers detect refund fraud and identify
                  prevention measures.
                                                                                  Page 6
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                  •   One applicant was convicted of Breach of Trust and
                      stated in an attachment to the application that he or she
                      had been “Convicted Breach of Trust, Nov. 1994.
                      Misappropriation of Funds.”
                  •   One applicant was convicted in 1982 of Forgery and
                      served 3 years.
                  •   One applicant was convicted of theft of personal
                      property and battery of a spouse and had other criminal
                      charges.
                  •   One applicant was charged with Fraud Activities.
                      According to documentation sent in with the application,
                      the applicant stated he or she was convicted of “Larceny
                      in a building over $100.00.”
                  Procedures detailing the process to be followed when
                  criminal background information is returned by the FBI,
                  including the need to refer for review those individuals who
                  have criminal histories, were not always followed.
                  Subsequent to our review, the IRS issued specific
                  procedures to clarify that when the FBI returns a fingerprint
                  card with criminal data, it is to be forwarded to the CI
                  function.
                  Individuals continue to be accepted into the e-file Program
                  without assurance that they are subjected to screening
                  checks if they participate as volunteer EROs.
                  Individuals who participate as EROs as a service not for
                  profit (such as at VITA and AARP sites) are not screened.
                  During 2002, there were 6,059 EROs in the VITA Program
                  who provided e-filing or tax preparation as a service not for
                  profit and e-filed in excess of 500,000 tax returns. IRS
                  management stated that screening of these volunteers is
                  extremely difficult because:
                  •   Training of volunteers continues up to February 1.
                      Since the training of the volunteers occurs until the
                      volunteer sites open, it would take until after the normal
                      tax filing deadline (April 15) to complete all the
                      screening checks on the volunteers.



                                                                          Page 7
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                  •   Many trained volunteers do not show up.
                      Approximately one-half of the volunteers who are
                      trained will not appear to help taxpayers at the volunteer
                      sites.
                  •   Perceived burden on the volunteers. Subjecting
                      volunteers to the same screening process required of a
                      paid tax preparer would seem intrusive and a burden to
                      volunteers. As a result, individuals would not volunteer
                      to help low-income taxpayers prepare their returns.
                  Although there is a risk in not screening these volunteers,
                  the IRS must weigh the risk against the benefits they have to
                  low-income taxpayers. The IRS should continue to monitor
                  the volunteer programs, especially as they grow in the
                  future.
                  Control weaknesses in the applicant screening process
                  enable EROs to commit filing fraud
                  Both the TIGTA and an IRS Task Force have made
                  numerous recommendations to IRS management to address
                  the above concerns with the ERO screening process;
                  however, IRS management has adopted only a few of the
                  recommendations (see Appendix V for a list of the
                  recommendations). As a result, these concerns still exist,
                  and some EROs have used the e-file Program to commit
                  filing fraud and obtain fraudulent refunds. For example:
                  •   One ERO filed approximately 9,000 fraudulent tax
                      returns over a 3-year period and received approximately
                      $7 million in fraudulent tax refunds in 1 year alone.
                      This ERO had a criminal history before being accepted
                      as an ERO. The ERO recently pled guilty to filing false,
                      fictitious, and fraudulent claims against the U.S. (tax
                      returns) for 5 years, conspiracy to file false claims
                      against the U.S., and conspiracy to negotiate forged U.S.
                      Treasury checks of approximately $33,000. In an
                      interview with the ERO, we learned that the person had
                      been arrested for alien smuggling and deported, but then
                      re-entered the U.S. using the passport of another person
                      and became an ERO.



                                                                         Page 8
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                  •   One ERO was allowed to participate in the e-file
                      Program despite being a convicted felon. The ERO
                      never disclosed having been convicted of a crime on the
                      application to participate in the e-file Program, and the
                      person’s fingerprints were sent for FBI analysis. This
                      ERO has since pled guilty to mortgage fraud, bank
                      fraud, and identity theft and is serving an 8-year
                      sentence.
                  Applicant screening control weaknesses could impact
                  taxpayers and the Federal Government
                  As stated in Publication 1345:
                         ...While all authorized IRS e-file Providers must
                         be on the lookout for fraud and abuse in the IRS
                         e-file Program, EROs must be particularly
                         diligent while acting in their capacity as the first
                         contact with taxpayers filing a return. Neither
                         EROs nor the IRS benefit when the integrity and
                         reputation of the IRS e-file Program is tarnished
                         by fraud or allegations of abuse. EROs with
                         problems involving fraud and abuse may be
                         suspended from the IRS e-file Program, be
                         assessed civil and preparer penalties, or be
                         subject to legal action.
                  There are currently no national standards that an
                  individual is required to satisfy before presenting
                  himself or herself as a Federal tax preparer and selling
                  tax preparation services to the public. Therefore, it is of
                  the utmost importance that the IRS adequately screen
                  individuals to protect both the taxpaying public and the
                  Federal Government from losses resulting from actions
                  by unscrupulous EROs.

                  Recommendations

                  The Commissioner, W&I Division, should enhance the
                  screening procedures for EROs by:
                  1. Requiring verification of age and citizenship of
                     applicants before acceptance into the e-file Program.


                                                                          Page 9
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                  Management’s Response: The deployment of e-Services
                  Release 1.2 will allow the IRS to validate both the Social
                  Security Number (SSN) and date of birth during the e-file
                  application process. Unfortunately, e-Services does not
                  offer a separate systemic citizenship check. The IRS will
                  continue to use current procedures that require principals
                  and responsible officials to possess valid SSNs. If the
                  applicant does not provide a valid SSN, then the applicant is
                  ineligible and the application is rejected.
                  Office of Audit Comment: Management indicated that they
                  do not believe researching existing information they
                  currently maintain to ensure applicants meet citizenship
                  requirements is beneficial. We do not agree with
                  management’s assertion that this would not be beneficial.
                  Considering the Government’s focus on citizenship issues,
                  the IRS should be participating by ensuring all EROs are
                  legal citizens, as required. In addition, at the completion of
                  our prior review,8 we referred 350 authorized EROs to
                  TIGTA’s Office of Investigations identified as having
                  questionable citizenship based on our analysis of IRS data.
                  To date, the Office of Investigations has confirmed that 93
                  of these individuals are, in fact, not U.S. citizens or legal
                  resident aliens and, therefore, should not have been
                  authorized to participate in the e-file Program. Without
                  implementing this recommendation, the IRS’ ability to
                  protect the integrity of the e-file Program, as well as
                  taxpayers and the Government against losses from filing
                  fraud, may be hindered.
                  2. Sending scanned fingerprints to the FBI electronically.
                     For those fingerprint cards that are unprocessable, a
                     name check should be used as the basis for the criminal
                     background check.
                  Management’s Response: Based on IRS discussions with
                  the FBI, the IRS would qualify to obtain electronic access to
                  the FBI’s fingerprint system. This process requires that the


                  8
                   E-File Providers Are Not Adequately Screened (Reference Number
                  2002-40-111, dated June 2002); and Improvements to the Electronic
                  Return Originator Monitoring Program Are Needed (Reference Number
                  2003-30-039, dated January 2003).
                                                                          Page 10
                Improvements Are Needed in the Screening and Monitoring
                    of E-File Providers to Protect Against Filing Fraud

                                  IRS purchase scanning hardware and software. Fingerprint
                                  results will be returned within a 24-hour period. However,
                                  completion of this acquisition process will not occur before
                                  the 2004 Filing Season.9
                                  For those fingerprint cards that are unprocessable, interim
                                  procedures were instituted that provide an applicant two
                                  opportunities to submit processable fingerprint cards. If the
                                  second attempt is unprocessable, the IRS will request the
                                  FBI perform a background check using name and other
                                  available information.
                                  3. Verifying that individuals who provide professional
                                     certifications in lieu of a fingerprint card are in current
                                     standing with the organization to which the professional
                                     certification relates.
                                  Management’s Response: The deployment of e-Services
                                  Release 1.2 will systemically validate that an enrolled agent
                                  is in current standing during the application process. While
                                  there is no central repository of information that can
                                  currently be systemically checked for other categories of
                                  professionals, the IRS will pursue the feasibility of
                                  developing a method to perform this check for the other
                                  categories.
                                  4. Addressing the separation-of-duties conflict by shifting
                                     the oversight responsibility for the screening/verification
                                     process for EROs to the organization responsible for
                                     oversight of the e-file Program and away from the
                                     marketing function.
                                  Management’s Response: On August 10, 2003, the IRS
                                  transferred the oversight responsibility for the screening
                                  process for EROs to the Electronic Tax Administration
                                  Division, which also has oversight of the e-file Program.
                                  Improvements are needed in the process followed to
Improvements Are Needed in the
                                  monitor individuals once they have been authorized to
Electronic Return Originator
                                  participate in the e-file Program to ensure these individuals
Monitoring Program
                                  continue to maintain a high degree of integrity and adhere to
                                  the highest professional and ethical standards. The purpose

                                  9
                                   The filing season is the period between January and mid-April when
                                  most individual income tax returns are filed.
                                                                                               Page 11
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                  of monitoring is to verify EROs’ compliance with
                  requirements for participating in the IRS’ e-file Program.
                  The IRS uses two methods to monitor EROs: Program
                  monitoring and Field monitoring.
                  Program monitoring consists of a computerized analysis of
                  an ERO’s tax filing and tax payment compliance. This
                  analysis is performed on a yearly basis for all EROs
                  participating in the Program, as well as when an individual
                  applies to become an ERO.
                  Field monitoring involves IRS employees visiting an ERO’s
                  establishment. These visits are designed to ensure the ERO
                  is in compliance with e-file regulations. Depending on the
                  seriousness of the infraction, violations of the IRS’ ERO
                  requirements may result in a verbal or written warning,
                  written reprimand, suspension, or expulsion of the ERO
                  from the IRS e-file Program. The goal to visit 1 percent of
                  all EROs was achieved in both Calendar Years 2001 and
                  2002.
                  ERO monitoring does not include subsequent criminal
                  background checks and/or the analysis and use of the
                  percentage of e-file reject rates
                  In response to a recommendation made by the TIGTA in
                  1999,10 IRS management submitted a request in 2003 for a
                  computer program that will continuously monitor the tax
                  accounts of EROs for suspect transactions.
                  However, the current ERO monitoring consists only of
                  monitoring for tax compliance and submission of required
                  e-file forms. We found that there are no subsequent,
                  nontax-related screening checks performed. For example:
                  •    Periodic criminal background checks are not performed
                       once an ERO is accepted into the e-file Program. As we
                       reported in June 2002,11 once individuals are authorized
                       to participate in the e-file Program, there are no

                  10
                     Further Improvements Are Needed to the Internal Revenue Service’s
                  Process for Admitting Preparers and Transmitters Into Its Electronic
                  Filing Program (Reference Number 092104, dated September 1999).
                  11
                     E-File Providers Are Not Adequately Screened (Reference Number
                  2002-40-111, dated June 2002).
                                                                              Page 12
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                       subsequent monitoring checks to ensure they continue to
                       maintain a high degree of integrity and adhere to the
                       highest professional and ethical standards.
                       In response to our previous report, IRS management
                       indicated that once an individual is accepted in the
                       e-file Program, evidence of disreputable conduct is
                       based solely on referrals from the taxpaying public. The
                       IRS could periodically update criminal background
                       checks on EROs with electronically scanned fingerprint
                       cards.
                  •    Reject rate12 information is not analyzed and used to
                       identify noncompliance or EROs that may require
                       educational assistance. Currently there is no
                       requirement to use an ERO’s reject rate as a possible
                       indicator of ERO noncompliance or education needs.
                       Using reject rates would focus Program as well as
                       Field monitoring to specific EROs.
                  An IRS e-file task force report, “Electronic Filing System:
                  Suitability/Security/QRDT,”13 issued May 1991,
                  recommended that a reject rate of 15 percent be the
                  maximum for continued participation in the Program. A
                  TIGTA report14 issued in 1999 found that although the
                  national average reject rate for all EROs is 14 percent,
                  EROs with fraud penalties had an overall reject rate of
                  23 percent.




                  12
                     When an e-filed return is transmitted to the IRS, it is run through a
                  series of validity and error checks. These checks look for such things as
                  names and SSNs that match IRS records, math errors, and other
                  common errors. If errors are found, the return is rejected back to the
                  ERO to fix the error and resubmit the return. The percentage of returns
                  transmitted versus returns rejected is known as the “reject rate.”
                  13
                     QRDT stands for the Questionable Refund Detection Team.
                  14
                     Further Improvements Are Needed to the Internal Revenue Service’s
                  Process for Admitting Preparers and Transmitters Into Its Electronic
                  Filing Program (Reference Number 092104, dated September 1999).
                                                                                  Page 13
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                  During 2002, there were 47,804 authorized EROs that
                  transmitted at least 100 e-filed tax returns each. Table 1
                  shows that 11,921 (25 percent) of the 47,804 authorized
                  EROs had an e-file reject rate over 15 percent.
                                  Table 1: 2002 Reject Rates for EROs
                                   With 100 or More e-filed Returns

                       Reject Rate Percentage         Number of EROs    Percentage
                   Equal to or less than 15 percent       35,883           75%
                   Over 15 percent                        11,921           25%
                  Source: TIGTA Analysis of IRS 2002 data.

                  Program goals and measurements should be
                  results-oriented and used in ERO monitoring
                  ERO monitoring involves IRS employees visiting an ERO’s
                  establishment. These visits are designed to ensure the ERO
                  is in compliance with e-file regulations. Depending upon
                  the seriousness of the infraction, violations of the IRS’ ERO
                  requirements may result in a verbal or written warning,
                  written reprimand, suspension, or expulsion of the ERO
                  from the IRS e-file Program.
                  However, in a TIGTA report issued in January 2003,15 we
                  reported that there are no meaningful goals or methods to
                  measure program results. A recommendation to establish a
                  measurement system to assess the effectiveness of field
                  monitoring was included in the report. IRS management
                  disagreed, stating it would be impossible to measure the
                  effect on voluntary compliance. IRS management believed
                  that although they could establish a goal and measures to
                  track the results of follow-up visits, the results would not be
                  of significant value in determining the affect on voluntary
                  compliance. Therefore, goals and measurements to assess
                  the effectiveness of the ERO monitoring program have not
                  been established.
                  Unless IRS management determines the indicators of
                  potential ERO noncompliance and uses them for monitoring



                  15
                    Improvements to the Electronic Return Originator Monitoring
                  Program Are Needed (Reference 2003-30-039, dated January 2003).
                                                                            Page 14
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                  visit selection and educational efforts, they will not be able
                  to effectively focus their resources.
                  Discussions TIGTA auditors had with an ERO who pled
                  guilty to filing false tax returns identified that this particular
                  ERO had a high reject rate. Analysis of the ERO’s e-file
                  data showed a reject rate in excess of 40 percent for tax
                  returns submitted during 2001 and 2002.
                     Table 2: Reject Rates for ERO Who Committed Filing Fraud

                                   5000                                 4,632
                                              3,422
                                   4000
                         Returns
                                   3000
                                                                                1,919
                                                      1,572
                                   2000
                                   1000               46%                       41%
                                      0
                                                      2001                    2002
                                                              Filing Season

                                          Returns Transm itted         Returns Rejected

                  Source: IRS e-file records.

                  The ERO explained that the high reject rate was the result of
                  a process known as “washing.” This process involved the
                  ERO submitting tax returns containing fraudulently
                  obtained SSNs. These SSNs were included as primary or
                  secondary filers, dependents, or children to be claimed for
                  the Earned Income Tax Credit. As part of the IRS’ validity
                  checks, SSNs are verified against computer files to
                  determine issues such as if the SSN is an issued SSN and/or
                  was previously used on another tax return. If any of these
                  checks identify problems with the SSN, the tax return is
                  rejected and the ERO is provided with an explanation as to
                  the problem with one or more of the SSNs contained on the
                  tax return. The ERO would then keep track of those SSNs
                  that were rejected to ensure they were not used on
                  subsequently submitted fraudulent tax returns. The IRS had
                  no documentation of a monitoring visit for this ERO.
                  Without a method to measure the effectiveness of the
                  monitoring program, the IRS will not be able to determine
                  where resources will have the most impact in identifying
                                                                                        Page 15
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                  and stopping unscrupulous EROs. If noncompliant EROs
                  are not identified, the taxpaying public and the Federal
                  Government are at risk of losses due to fraudulent filings of
                  tax returns.

                  Recommendations

                  5. The Commissioner, W&I Division, should perform
                     periodic criminal background checks for all individuals
                     authorized to participate in the e-file Program.
                  Management’s Response: The IRS did not agree with this
                  recommendation. Changing the periodic suitability rules to
                  include criminal background checks would apply only to
                  e-file Providers in good standing with the IRS. Checks are
                  done initially to attempt to determine if a Provider can be
                  trusted to process electronic returns according to e-file rules.
                  Expanding the program to Providers who demonstrate
                  compliance with e-file rules will not correct the problem.
                  E-file is an alternative way of sending return data to the IRS,
                  not a method of preparing returns. Revenue Procedure
                  2000-31, section 6.02(4) states that if data on an electronic
                  return are altered by an e-file Provider, e-file rules no longer
                  have jurisdiction because income tax return preparation
                  rules apply. Only after a determination of penalties and
                  fraud can the screening/verification process take action
                  against an applicant or sanction an accepted e-file Provider.
                  In addition, IRS management believes that their
                  enhancements to the monitoring program will reduce the
                  need for this recommendation.
                  Office of Audit Comment: IRS management indicated that
                  changing the periodic suitability rules to include criminal
                  background checks would apply only to e-file Providers in
                  good standing, with initial checks being done to determine if
                  an individual can be trusted to process electronic tax returns.
                  We agree that the initial checks, if performed, assist in
                  identifying individuals who should not be authorized to
                  participate. In addition, we agree that periodic checks alone
                  will not correct the problem of e-file fraud.


                                                                          Page 16
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                  However, we continue to believe that periodic checks may
                  complement other monitoring process improvements the
                  IRS is making. Periodic checks may assist the IRS in
                  ensuring that e-file Providers continue to comply with e-file
                  rules and are not involved in unethical practices regarding
                  tax return preparation and/or disreputable conduct, which
                  are both conditions for non-acceptance in the Program.
                  Finally, IRS management noted that although our outcome
                  measure was a reasonable estimate, they could not agree
                  with it because they disagree with this recommendation.
                  We continue to support our revenue protection outcome
                  measurement and believe that if the recommendations
                  made in prior reports had been implemented, the ERO we
                  cited in our audit report as having filed approximately
                  9,000 fraudulent tax returns over a 3-year period, and who
                  received approximately $7 million in fraudulent tax refunds
                  in 1 year, could have been identified earlier, thus preventing
                  a loss of Government funds.
                  Without implementing this recommendation, the IRS’
                  ability to protect the integrity of the e-file Program, as well
                  as taxpayers and the Government against losses from filing
                  fraud, may be hindered.
                  6. The Commissioner, W&I Division, should include reject
                     rates as selection criteria for ERO visits and/or
                     educational efforts.
                  Management’s Response: The IRS will establish a baseline
                  on the top three reject rates and develop educational
                  material for subsequent outreach efforts. Additionally, the
                  IRS is preparing guidance for the ERO Coordinators. This
                  guidance will instruct them on the use of the Online
                  Applicants database to determine the proper mix of random
                  visits based on a random sample to provide broad
                  geographic coverage, and targeted visits based on selection
                  criteria indicating that e-file compliance issues may be
                  present in a particular ERO’s e-file practice.
                  7. The Commissioner, Small Business/Self-Employed
                     Division, should develop a system to measure the
                     effectiveness of the ERO monitoring program.


                                                                          Page 17
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                  Management’s Response: The IRS will revise its
                  monitoring reports to reflect the results broken down by
                  referral type. This change in reporting will provide it with
                  more detail and it could measure the results of follow-up
                  and targeted versus random visits.




                                                                        Page 18
               Improvements Are Needed in the Screening and Monitoring
                   of E-File Providers to Protect Against Filing Fraud

                                                                                   Appendix I


                     Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the Internal Revenue Service’s (IRS)
regulation of Electronic Return Originators (ERO). To accomplish this objective, we conducted
the following tests:
I.     Identified prior audit reports issued by the Treasury Inspector General for Tax
       Administration (TIGTA) and other organizations regarding the regulation of EROs.
       A. Analyzed the reports to determine the control weaknesses and whether IRS
          management’s actions corrected the weaknesses.
       B. Discussed the IRS’ responses to previous recommendations and determined the
          current position of IRS management.
II.    Determined if there were any cases of convicted EROs who had evaded detection in
       screening and monitoring.
       A. Interviewed an ERO who pled guilty to preparing and filing false, fraudulent tax
          returns. Determined the control weaknesses that enabled this ERO to participate in
          the IRS’ electronic filing Program.
       B. Coordinated and communicated with the TIGTA’s Office of Investigations to
          determine if there were any other investigations/prosecutions of EROs who
          committed filing fraud.
III.   Determined if there was any information available to aid in the detection of EROs who
       may commit filing fraud.
       A. Analyzed any information obtained to determine patterns, thresholds, costs, etc.
       B. Reviewed all available ERO folders that had had fingerprint cards sent to the
          Federal Bureau of Investigation in December 2002 for analysis (687) and returned
          with information of a criminal history (90).




                                                                                        Page 19
               Improvements Are Needed in the Screening and Monitoring
                   of E-File Providers to Protect Against Filing Fraud

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Kerry Kilpatrick, Director
Russell Martin, Acting Director
Pamela DeSimone, Senior Auditor
Kristi Larson, Senior Auditor
Edie Lemire, Senior Auditor




                                                                                         Page 20
              Improvements Are Needed in the Screening and Monitoring
                  of E-File Providers to Protect Against Filing Fraud

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications and Liaison SE:S:M:CL
Director, Compliance SE:S:C
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Electronic Tax Administration OS:CIO:I:ET
Director, Field Operations SE:W:CAR:SPEC:FO
Director, Reporting Compliance SE:S:C:CP:RC
Director, Stakeholder Partnerships, Education, and Communications SE:W:CAR:SPEC
Director, Strategy and Finance SE:W:S
Deputy Director, Compliance Policy SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Customer Liaison, Small Business/Self-Employed Division S:COM
       GAO/TIGTA Liaison, Wage and Investment Division W:S:PA




                                                                                  Page 21
                Improvements Are Needed in the Screening and Monitoring
                    of E-File Providers to Protect Against Filing Fraud

                                                                                     Appendix IV


                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Revenue Protection – Actual; over $7 million in fraudulent tax refunds (see page 2).
Methodology Used to Measure the Reported Benefit:
One Electronic Return Originator (ERO) filed approximately 9,000 fraudulent tax returns over a
3-year period and received approximately $7 million in fraudulent tax refunds in 1 year. The
ERO had a criminal history before being accepted as an ERO, and recently pled guilty to filing
false, fictitious, and fraudulent claims against the United States (U.S.) (tax returns) for 5 years,
conspiracy to file false claims against the U.S., and conspiracy to negotiate forged U. S. Treasury
checks of approximately $33,000. In an interview with the ERO, we learned that the person was
arrested for alien smuggling and was deported, but then re-entered the U.S. by using the passport
of another person and became an ERO.
If the recommendations made in prior reports had been implemented, this ERO could have been
identified earlier, preventing a loss of Federal Government funds.




                                                                                            Page 22
                 Improvements Are Needed in the Screening and Monitoring
                     of E-File Providers to Protect Against Filing Fraud

                                                                                                   Appendix V


               Recommendations Related to the Screening and Monitoring
                         of Electronic Return Originators

During Fiscal Years 2002 and 2003, the Treasury Inspector General for Tax Administration
(TIGTA) issued two audit reports that addressed the Internal Revenue Service’s (IRS) screening
and monitoring of Electronic Return Originators (ERO). In 1991, an internal IRS Task Force
also made recommendations regarding the screening of EROs. The table below provides details
of the 13 audit recommendations and the 1 Task Force recommendation and shows the
agreement/disagreement by the IRS. Copies of the TIGTA audit reports can be obtained at
www.treas.gov/tigta.


 Reference                                                                                             Agree/
           Title                    Recommendation and Corrective Actions
 Number                                                                                                Disagree
 2002-40-111   E-File Providers     Recommendation: The Commissioner, Wage and                         Disagreed
               Are Not Adequately   Investment (W&I) Division, should ensure that screening
               Screened             procedures for new applicants should include an independent
                                    validation of age and citizenship
                                    Recommendation: The Commissioner, W&I Division,                    Disagreed
                                    should ensure that all applicants should be subjected to a
                                    credit and criminal background check, and individuals should
                                    not be authorized to participate in the e-file Program until all
                                    verifications and checks are completed.
                                    Recommendation: The Commissioner, W&I Division,                    Disagreed
                                    should ensure that subsequent credit and criminal background
                                    checks are performed at regular intervals.
                                    Recommendation: The Commissioner, W&I Division,                    Agreed in
                                    should ensure that internal guidelines be adhered to regarding     part
                                    the handling of fingerprint cards returned as unprocessable
                                    from the FBI. Also, those individuals who have been
                                    identified to date as having unprocessable fingerprint cards
                                    should be contacted, and a new card should be provided so the
                                    criminal background check can be completed.
                                    Management’s Response: IRS management asserted that
                                    they will obtain new cards and submit them in future
                                    instances where fingerprint cards are returned as
                                    unprocessable. However, they did not believe they needed to
                                    contact those who were already identified to date since those
                                    individuals are already participants in the Program.




                                                                                                         Page 23
               Improvements Are Needed in the Screening and Monitoring
                   of E-File Providers to Protect Against Filing Fraud

Reference                                                                                        Agree/
          Title                 Recommendation and Corrective Actions
Number                                                                                           Disagree
2003-30-039   Improvements to   Recommendation: Establish a goal and method for                  Disagreed
              the ERO           measuring program effectiveness for improving ERO
              Monitoring        compliance, such as results of follow-up visits.
              Program Are
                                Recommendation: Ensure that historical case documentation        Agreed
              Needed
                                is associated with current year cases and reinforce that the
                                purpose of follow-up visits is to measure the impact of the
                                ERO Monitoring Program on compliance.
                                Management’s Response: The Director, Reporting
                                Compliance Policy, Small Business/Self-Employed (SB/SE)
                                Division will issue a memorandum providing additional
                                direction and guidance on documentation.
                                Recommendation: Establish a planning process that allows         Agreed
                                sufficient time for training and case building.
                                Management’s Response: The IRS plans to conduct training
                                prior to the new fiscal year [2004]. Also, the analyst
                                responsible for the program will be responsible for the
                                planning, training, and case building.
                                Recommendation: Ensure that the functionality of the OLA         Agreed in
                                [On-Line Applicants] Database’s replacement meets user           part
                                requirements and that EMCs [e-file Monitoring Coordinators]
                                and monitors are sufficiently trained on all pertinent e-file
                                systems.
                                Management’s Response: All new EMCs were trained on
                                all pertinent e-file systems in the 2002 train-the-trainer
                                classes. Guidance will be provided to EMCs who did not
                                attend training.
                                Recommendation: Develop a process to determine the               Agreed
                                proper mix of random and mandatory ERO monitoring visits
                                that also provides for broad geographic coverage.
                                Management’s Response: Management will provide written
                                guidance to Coordinators advising them to consider balance
                                of geographic coverage when selecting random visits.
                                Recommendation: Develop uniform risk-based selection             Agreed
                                criteria that take advantage of available information and data
                                for selecting EROs for random monitoring visits.
                                Management’s Response: The Director, Reporting
                                Compliance Policy, SB/SE Division, will provide guidance to
                                Coordinators on using available information to select EROs
                                whose filing statistics show potential problems.




                                                                                                   Page 24
            Improvements Are Needed in the Screening and Monitoring
                of E-File Providers to Protect Against Filing Fraud

Reference                                                                                        Agree/
          Title                  Recommendation and Corrective Actions
Number                                                                                           Disagree
                                 Recommendation: Provide clear and unambiguous ERO               Agreed
                                 Monitoring Program infraction and sanction guidelines for
                                 EMCs and monitors.
                                 Management’s Response: Management revised training
                                 materials to include additional examples of infraction and
                                 sanction guidelines.
                                 Recommendation: Revise e-file Monitoring Guidelines to          Agreed
                                 consider the Earned Income Tax Credit due diligence when
                                 determining ERO compliance with IRS e-file Program
                                 requirements.
                                 Management’s Response: The IRS instructed monitors to
                                 pursue due diligence penalties when appropriate.
                                 Recommendation: The Director, Compliance, SB/SE                 Agreed
                                 Division, should issue a memorandum reinforcing the
                                 importance of complete case documentation of ERO
                                 monitoring visits.
                                 Management’s Response: Management will issue written
                                 guidance to reinforce the importance of complete case
                                 documentation of ERO Monitoring visits.
          Electronic Filing      Recommendation: Establish error rate standards. An error        No action
          System                 rate of 5 percent and a reject rate of 15 percent are the       taken
          Suitability/Security   suggested maximums for continued participation in the EFS
          /QRDT                  [Electronic Filing System]. Remedial action should be left to
          [Questionable          the discretion of the Service Center Directors, giving
          Refund Detection       consideration to receipt volumes, corrective actions,
          Team] Final            performance history, etc.
          Report 5/91




                                                                                                   Page 25
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud

                                                          Appendix VI


     Management’s Response to the Draft Report




                                                               Page 26
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud




                                                          Page 27
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud




                                                          Page 28
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud




                                                          Page 29
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud




                                                          Page 30
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud




                                                          Page 31
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud




                                                          Page 32
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud




                                                          Page 33
Improvements Are Needed in the Screening and Monitoring
    of E-File Providers to Protect Against Filing Fraud




                                                          Page 34
